CERTIFICATE OF COMPLIANCE
No.
IRMA ROSAS,
Petitioner
v.
AUSTIN INDEPENDENT SCHOOL DISTRICT; TEXAS DEPARTMENT OF
STATE HEALTH SERVICES; TEXAS RIOGRANDE LEGAL AID,

INCORPORATED,
Respondents
As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 5,526 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 3, 2020
'v"~VV
Irm^ Rosas, pro se
6333 South Lavergne Ave
Chicago, Illinois 60638
Telephone: (773) 627-8330
E-mail: irmarosaswebsite@gmail.com

d02>O

